<html>
<title> - IMPLEMENTATION OF THE MARITIME TRANSPORTATION SAFETY ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




     THE IMPLEMENTATION OF THE MARITIME TRANSPORTATION SECURITY ACT

=======================================================================

                                (109-27)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 29, 2005

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                                 _____

                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        

22-506 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           CORRINE BROWN, Florida
SPENCER BACHUS, Alabama              BOB FILNER, California
STEVEN C. LaTOURETTE, Ohio           EDDIE BERNICE JOHNSON, Texas
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          JUANITA MILLENDER-McDONALD, 
ROBERT W. NEY, Ohio                  California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
JERRY MORAN, Kansas                  EARL BLUMENAUER, Oregon
GARY G. MILLER, California           ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, Jr., New Jersey
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
TODD RUSSELL PLATTS, Pennsylvania    SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
BILL SHUSTER, Pennsylvania           RICK LARSEN, Washington
JOHN BOOZMAN, Arkansas               MICHAEL E. CAPUANO, Massachusetts
JIM GERLACH, Pennsylvania            ANTHONY D. WEINER, New York
MARIO DIAZ-BALART, Florida           JULIA CARSON, Indiana
JON C. PORTER, Nevada                TIMOTHY H. BISHOP, New York
TOM OSBORNE, Nebraska                MICHAEL H. MICHAUD, Maine
KENNY MARCHANT, Texas                LINCOLN DAVIS, Tennessee
MICHAEL E. SODREL, Indiana           BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        BRIAN HIGGINS, New York
TED POE, Texas                       RUSS CARNAHAN, Missouri
DAVID G. REICHERT, Washington        ALLYSON Y. SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
VACANCY

                                  (ii)




        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                FRANK A. LOBIONDO, New Jersey, Chairman

HOWARD COBLE, North Carolina         BOB FILNER, California, Ranking 
WAYNE T. GILCHREST, Maryland         Democrat
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
ROB SIMMONS, Connecticut             GENE TAYLOR, Mississippi
MARIO DIAZ-BALART, Florida           JUANITA MILLENDER-McDONALD, 
DAVID G. REICHERT, Washington,Vice-  California
Chair                                MICHAEL M. HONDA, California
CONNIE MACK, Florida                 ANTHONY D. WEINER, New York
LUIS G. FORTUNO, Puerto Rico         BRIAN HIGGINS, New York
CHARLES W. BOUSTANY, Jr., Louisiana  BRIAN BAIRD, Washington
DON YOUNG, Alaska                    JAMES L. OBERSTAR, Minnesota
  (Ex Officio)                         (Ex Officio)

                                 (iii)



                                CONTENTS

                               TESTIMONY

                                                                   Page
 Bone, Craig E., Director of Port Security, United States Coast 
  Guard..........................................................     3
 Jackasta, Robert, Executive Director of Border Security and 
  Facilitation, Office of Field Operations, United States Customs 
  and Border Protection..........................................     3

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Bone, Craig E...................................................    24
 Jackasta, Robert................................................    30

 
        IMPLEMENTATION OF THE MARITIME TRANSPORTATION SAFETY ACT

                              ----------                              


                       House of Representatives,

        Committee on Transportation and Infrastructure, 
            Subcommittee on Coast Guard and Maritime 
            Transportation, Washington, D.C.
    The committee met, pursuant to call, at 10:00 a.m. in room 
2167, Rayburn House Office Building, Hon. Frank LoBiondo 
[chairman of the committee] presiding.
    Mr. LoBiondo. Good morning. The Subcommittee on Coast Guard 
and Maritime Transportation will come to order.
    The Subcommittee is meeting today to oversee implementation 
of the maritime transportation security measures required by 
the Maritime Transportation Security Act. At this time last 
year, the Subcommittee held two hearings to review the 
implementation of the final regulations that carried out the 
maritime security measures under MTSA. Today, U.S. facilities 
and vessels must operate under an approved plan that includes 
measures to enhance security on-site and to identify and ensure 
the availability of security measures to deter transportation 
security incidents and the threat of such incidents.
    I want to applaud the Coast Guard for working so closely 
with the maritime sector to put these plans in place before the 
July 1st deadline. Nearly one year after these regulations went 
into effect, I am looking forward to hearing more about the 
status of these port security regulations as well as the 
Department's other efforts to secure our ports and our maritime 
transportation system.
    Following the events of September 11th, the Coast Guard has 
been designated as the lead Federal agency responsible for 
securing America's maritime transportation system and the 
Congress adopted the MTSA. That Act established the framework 
upon which the Coast Guard and other partner agencies within 
the Department of Homeland Security are building the national 
maritime security strategy.
    While some of the components of this national strategy are 
in place, I am extremely concerned at the lack of progress on 
many others, including completion of the now long overdue 
National Maritime Transportation Security Plan, a long-range 
vessel tracking system the Transportation Worker Identification 
Card and the secure systems of the transportation program.
    Under the MTSA, the Coast Guard is required to develop 
systems to target and track vessels as they operate in U.S. 
waters and on the high seas. The Coast Guard has implemented 
the Automatic Identification System to provide information on 
vessel movement in 12 major ports and expects to expand the 
system in the future. However, much less progress has been made 
toward developing a system to track vessels at greater 
distances from the shore, which I think is extremely essential 
to our policy and our ability to protect ourselves.
    I look forward to the hearing testimony this morning 
regarding the Coast Guard's current efforts to develop a 
domestic long range vessel tracking system and to work with the 
International Maritime Organization to plan and implement a 
system internationally.
    I understand that the Department is currently carrying out 
a pilot program to test a prototype of the Transportation 
Worker Identification Credential, we call this the TWIC plan. 
TSA is issuing prototype TWIC cards in a handful of ports 
nationwide, including the ports on the Delaware River. This 
program will improve the security by employing the use of 
biometric information to prevent unauthorized persons from 
accessing secure areas in our ports and onboard vessels.
    I hope that the witnesses can provide the Subcommittee with 
some insight into how this pilot program is going.
    The Subcommittee also remains concerned about the 
Department's efforts to improve cargo security. The MTSA 
requires the Department to investigate and develop methods, 
programs and technologies to better inspect vessels and cargo, 
to detect explosives and radiological, nuclear, chemical and 
biological weapons carried aboard vessels and in cargo, and to 
improve seals and tracking sensors fastened to cargo 
containers.
    However, this secure systems of transportation program 
authorized under MTSA exist in name only. The Department has 
not taken steps to establish this important program. The 
Subcommittee continues to be very active in the oversight of 
the Maritime homeland security.
    I thank the Coast Guard for its continued presence before 
the Subcommittee. And I welcome the witnesses from the U.S. 
Customs Border Protection. I am disappointed that the 
Transportation Security Administration has declined an 
invitation to appear before the Subcommittee. Last year, the 9/
11 Commission challenged the Congress to significantly increase 
its oversight to homeland security. The Subcommittee will 
continue active oversight of the Department's implementation of 
MTSA, including completion of the National Maritime 
Transportation Security Plan, enhanced identification 
credentialing of maritime transportation workers, and a long 
range vessel tracking program.
    Again, I want to thank the witnesses for coming this 
morning, and I look forward to their testimony.
    Mr. Simmons. do you care to make any remarks?
    Mr. Simmons. Simply to thank you, Mr. Chairman, for holding 
this important oversight meeting. I yield back.
    Mr. LoBiondo. Okay. Mr. Filner is on his way. He said it 
was okay for us to get started, so if he wants to make any 
comments when he comes in, we will certainly allow this.
    Right now I would like to introduce our witnesses. We have 
Rear Admiral Craig Bone, who is Director of Port Security for 
the United States Coast Guard, and Mr. Robert Jacksta, 
Executive Director of the Border Security and Facilitation 
Office of the Field Operations of the United States Customs and 
Border Protection.
    Admiral Bone, it is great to see you again. Thank you for 
being here and please proceed.

   TESTIMONY OF REAR ADMIRAL CRAIG E. BONE, DIRECTOR OF PORT 
SECURITY, UNITED STATES COAST GUARD; ROBERT JACKSTA, EXECUTIVE 
 DIRECTOR OF BORDER SECURITY AND FACILITATION, OFFICE OF FIELD 
    OPERATIONS, UNITED STATES CUSTOMS AND BORDER PROTECTION

    Admiral Bone. Thank you, sir.
    Good afternoon, Mr. Chairman. It is great to see you again, 
sir, and distinguished members of the Committee.
    I am Rear Admiral Craig Bone, Director of Port Security and 
the Coast Guard's Marine Safety, Security and Environmental 
Protection Director. Today I intend to discuss the Coast 
Guard's role to secure our ports and waterways and ensure the 
safe and efficient flow of commerce.
    The Coast Guard's overarching security goal is to prevent 
terrorist attacks against our ports and waterways. Doing so 
requires a risk-based approach to identify and intercept 
threats, ideally before they reach our shores. We do that by 
conducting layered, multi-agency security operations nationwide 
while strengthening the security posture and reducing the 
vulnerability of our ports with a particular focus on our 
Nation's militarily and economically strategic ports.
    Our Nation's maritime transportation system spans 26,000 of 
commercial navigable waterways. It accounts for $800 billion of 
freight trade each year, and is used by 78 million recreational 
boaters. A maritime terrorist attack on this system, with its 
associated ripple effects throughout our trade and commerce 
could have a devastating impact on our Nation's economy. 
Protecting this system is a significant challenge for the 
Department of Homeland Security, the Coast Guard and our other 
maritime stakeholders. We accomplish this through partnerships 
with other Federal, State and local agencies as well as the 
maritime industry.
    Since trade is global and terrorism is global, we knew it 
was necessary to build a global security regime. Our domestic 
and international efforts focused on the implementation of MTSA 
and the international ship and port security code, or ISPS 
code. We collaborated with 147 other countries at the 
International Maritime Organization to build a new and 
substantial security code that applies to all vessels and port 
facilities around the world. These international requirements 
mirror the domestic standards set forth in MTSA. Both the MTSA 
regulations and the ISPS code went into effect together on July 
1st, 2004.
    To complement the new security standards, we worked in 
parallel with the International Standards Organization, or ISO, 
to develop the ISPS code implementation guide. This guide is 
meant to aid countries complying with the standards. I am 
pleased to report excellent initial success. Approximately only 
one out of every 100 foreign-flagged vessels that we inspect in 
the U.S. require us to take major port-State control action to 
correct security deficiencies.
    We seek to obtain transparency of what and who moves 
through the maritime domain with accountability. The IMO and 
the ISO have been key allies in developing requirements and 
practical standards that lead to consistency, greater 
compliance and risk reductions. We verify reported compliance 
and implementation by conducting vessel offshore boardings, 
examinations and foreign port visits.
    Implementation has been a big challenge to all stakeholders 
involved with 9,000 U.S.-flagged vessels, 3,200 U.S. facilities 
and 8,000 foreign vessels that trade in the U.S. I am pleased 
to report the MTSA compliance rates for both vessels and 
facilities are near 99 percent across the board. This was due 
in large measure to the collaboration and excellent 
relationship Coast Guard captains of ports have at the local 
level, working with the area maritime security committees.
    I also note that as required by MTSA, we have also 
established an international port security program that works 
in concert with other Federal agencies to identify foreign 
countries posing potential security risks to the international 
maritime transportation system. To date, we have visited 27 
countries. Two of all 27 countries we visited have not properly 
implemented the ISPS code. Five additional countries are 
currently on our port security advisory list, because they have 
not reported their compliance to the IMO or the Coast Guard.
    The long term challenge is ahead for all of us. MTSA and 
the ISPS code provided the framework for our Nation's maritime 
security. But additional capability and capacity is needed by 
the agencies and industry to ensure we can best protect our 
maritime interests and respond to threats and terrorist events.
    To make maritime domain awareness protection and response 
systemic, we have acted on lessons learned. We have identified 
efforts needed, both domestically and internationally, and many 
of these require extensive interagency and industry 
coordination. This inventory of projects we refer to as 
America's Maritime Shield. They will improve how we execute the 
national maritime strategy. They represent our next wave of 
improvements to strengthen maritime security. Included are 
improved maritime domain awareness, improved identity security, 
improved underwater detection and response, complete supply 
chain cargo security and improved training for personal and 
vehicle-borne improved explosive devices as well as a counter-
terrorism response.
    I thank you for this opportunity to testify today, and I 
will be pleased to answer any questions at the appropriate 
time, sir.
    Mr. LoBiondo. Thank you, Admiral Bone.
    Mr. Jacksta, thank you for being here. Please proceed.
    Mr. Jacksta. Good morning, Mr. Chairman and distinguished 
members of the Subcommittee. Thank you for this opportunity to 
update the Subcommittee on U.S. Customs and Border Protection's 
effort to strengthen maritime security.
    CBP, as the guardian of the Nation's borders, safeguards 
the homeland foremost by protecting the American public against 
terrorists and instruments of terror, while at the same time 
enforcing the laws of the United States and fostering the 
Nation's economic activity through lawful trade
    Mr. LoBiondo. Excuse me, Mr. Jacksta, is your microphone 
on?
    Mr. Jacksta. Yes.
    Mr. LoBiondo. Okay. Just a weak one. Maybe you can pull it 
a little bit closer. Thank you.
    Mr. Jacksta. My remarks today will focus on advanced 
electronic cargo information, Customs-Trade Partnership Against 
Terrorism, CT-PAT, the container security initiative, non-
intrusive technology and the implementation of the Maritime 
Transportation Security Act. Automation, electronic information 
and technology are critical tools that facilitate the progress 
we continue to make with regard to securing in maritime cargo 
and increasing security against the terrorist threat.
    All information on cargo enroute to the United States is 
analyzed in advance of loading the container, based on 
available intelligence and historic trade information. This 
review takes place at our national targeting center, the 
container security initiative ports and CBP's ports of entry.
    Further, the NTC provides tactical targeting and analytical 
research support for CBP field offices and remains the single 
point of reference for CBP anti-terrorism efforts. As the 
Customs-Trade Partnership Against Terrorism has evolved, we 
have steadily added to the rigor of this volunteer industry-
partnership program. In order to join CT-PAT, a participant 
must commit to increasing its supply chain security to meet 
minimal supply chain security criteria.
    Perhaps most importantly, participants also make a 
commitment to work with their business partners and customers 
throughout the supply chains to ensure that those businesses 
also increase their supply chain security. By leveraging the 
influence of importers and others on different participants in 
the supply chain, CT-PAT is able to increase the security of 
United States-bound goods to the points of origin. That is, to 
the point of stuffing the container. This reach is critical to 
the goal of increasing supply chain security. In addition, CBP 
has published the CT-PAT strategic plan, clearly articulating 
the program's goals and strategies and complete CT-PAT human 
capital plan, which addresses recruitment, training and 
workload issues.
    To meet our priority mission of preventing terrorists and 
terrorist weapons from entering the United States, CBP has 
partnered with other countries on our container security 
initiative, CSI. Almost 26,000 sea containers arrive and are 
offloaded at United States seaports each day. In fiscal year 
2004, that equated to 9.6 million containers. Because of the 
sheer volume of the sea containers traffic and the 
opportunities it presents to terrorists, containerized shipping 
is uniquely vulnerable to terrorists' exportation.
    Under CSI, which is the first program of its kind, we are 
partnering with foreign governments to identify and inspect 
high risk cargo containers at foreign ports before they are 
shipped to our seaports and pose a threat to the United States. 
Today, CSI is operational at 37 ports.
    Non-intrusive inspection technology is another cornerstone 
in our strategy. Technologies deployed to our Nation's ports of 
entry include large-scale x-ray and gamma imaging systems, as 
well as a variety of portable and handheld technologies to 
include our recent focus on radiation detection technology. Our 
non-intrusive technologies are viewed as force multipliers that 
enable us to examine or screen a larger portion of legitimate 
trade.
    CBP is also moving quickly to deploy nuclear and 
radiological detection equipment to our ports of entry. CBP is 
initiating the deployment of radiation portal monitors in the 
maritime environment with the ultimate goal of screening 100 
percent of all containerized imported cargo for radiation. 
Additionally, CBP has deployed personal radiation detectors in 
quantities necessary for ensuring that there his 100 percent 
coverage at primary, the first port of contact.
    Finally, CBP is committed to internationalizing core 
elements of CT-PAT and CSI programs. The World Customs 
Organization, WCO, has worked cooperatively to develop an 
internal framework of standards governed by customs to customs 
relationships and customs to business relationships.
    The recent adoption of the World Customs Organization 
framework of standards and facilitation will strengthen our 
mutual efforts to secure trade against terrorists and the 
terrorist threat. I believe CBP has demonstrated and will 
continue to demonstrate our leadership and commitment to the 
maritime security efforts, and we anticipate that working with 
our sister agencies under the Department of Homeland Security 
we will further these efforts.
    Thank you again for the opportunity to testify. I will be 
happy to answer any questions you may have.
    Mr. LoBiondo. Thank you very much.
    Mr. Filner, thank you and the floor is yours.
    Mr. Filner. I apologize for being late, Mr. Chairman. And 
thank you for scheduling this hearing and I thank the panel for 
being here.
    Obviously we are coming up to the first anniversary for the 
facilities and vessels in the United States to be operating 
under Coast Guard approved security plans. And of course, it is 
time now to see how our security has improved.
    I would like to focus on a couple of issues with the panel 
first. What benchmarks are there to help us determine whether 
or not the security plans are in fact making our facilities and 
vessels more secure? And second, I would like to look at 
maritime security from the perspective of, I think what Sheriff 
Reichert and I talked about in a previous hearing, and I will 
just call it community policing, as applied to the Coast Guard. 
That is to what extent is the Coast Guard developing the kinds 
of relationships with the community that would allow better 
identification of maritime security threats?
    Obviously to implement Coast Guard security plans, marine 
terminal operators have had to install, for example, fencing 
and entry gates at terminals across the United States. Do we 
know to what extent have these measures decreased the amount of 
theft and pilferage at terminals? If televisions or containers 
are being stolen, I doubt that the security plans are adequate 
to prevent WMD from being smuggled in or out of that terminal.
    We all know that cities around the United States have been 
implementing what we call community policing plans over the 
past decade. They are getting police officers out of their cars 
and having them walk streets and visit businesses and know the 
residents. They get to know all these people and they know when 
something looks out of place.
    In contrast, it seems to me that Coast Guard facilities are 
restricting access to their facilities. The coastal communities 
only know Coast Guard personnel from watching them from afar as 
they patrol the waters. In the past, recreational boaters and 
commercial fishermen got to know Coast Guard personnel when 
they conducted safety exams on their boats to make sure they 
had enough life preservers.
    Now, the Coast Guard has asked the boating and fishing 
communities to be their eyes in the water and to let them know 
when they see suspicious activities. However, when the Coast 
Guard stops the recreation or fishing vessel for an exam, they 
often board them with weapons. What we have seen in the 
intelligence community pre-9/11 was an over-dependence on 
technology and not enough emphasis on human intelligence that 
is based on these kinds of personal relationships.
    What I am worried about, I think, is that the Coast Guard 
is going to close itself off in its facilities and become over-
reliant on these technologies to monitor waterways, rather than 
having Coast Guard personnel develop personal and ongoing 
relationships with our communities. Another component of this 
might be the Coast Guard's rotation policy for its personnel. 
When Admiral Collins joined the Coast Guard, most personnel 
spent their whole careers in a single Coast Guard district. 
They knew the business leaders, the marina operators and the 
fishermen. Coast Guard personnel knew the waters and could 
identify when something looked out of place, because many of 
them had even grown up in these local areas.
    However, once the Coast Guard centralized job assignments, 
personnel were transferred all over the United States from one 
tour to the next. It is difficult to develop the kind of 
personal relationships needed for homeland security if you are 
only there for three years.
    I hope we can comment on these concerns. Mr. Chairman, I 
look forward to working with you to make sure that we have the 
safest security possible in our Nation's coastal communities.
    Mr. LoBiondo. Thank you, Mr. Filner.
    Admiral Bone, I would like to start with some questions for 
you. First, I was recalling fondly our little trip back to the 
Coast Guard station and was wondering if that may be in the 
Coast Guard training library yet.
    Admiral Bone. It could have made the video, yes, sir.
    [Laughter.]
    Mr. LoBiondo. Thank you.
    Admiral Bone, the MTSA required the Department of Homeland 
Security to develop a National Maritime Transportation Security 
Plan to prevent and respond to security incidents in the 
maritime transportation sector. Last year's Intelligence Reform 
Act required the National Maritime Transportation Security Plan 
to be submitted by April 1st of 2005. Can you give us any idea 
of where the plan is in the Administration's review process and 
when it will be released? Then I have some follow-ups to that.
    Admiral Bone. Yes, sir. Yes, Mr. Chairman. The plan is 
actually undergoing final review, and it will be provided for 
interagency review in July. That is our schedule.
    Originally the plan was going to be completed December 
2005, and as you indicated, there was a change that directed it 
to be completed by April. What is inclusive in that plan is 
related to another security plan, however, when we look at the 
infrastructure recovery plan, the Marine Infrastructure 
Recovery Plan, it is also required. That's a piece of the 
National Maritime Security Plan.
    Deputy Secretary Jackson indicated in order to complete 
these simultaneously that we would need several more months in 
order to complete both, since you want them also in parallel. 
One applies to the other. So we in fact again, in July we will 
have it completed for interagency review and expect it to go 
forward from there.
    At the same time, we also completed the area maritime 
security plans as well as the vessel and facility security 
plans if you look at it from a tiered structure. We also wanted 
to ensure that the National Maritime Security Plan also serves 
as the sector plan under the transportation specific security 
plans. As you can see, there are multiple plans required of us, 
some with MTSA and some under HSPD-13 and HSPD-7.
    Mr. LoBiondo. So if I am understanding you correctly, part 
of what you are doing in putting this together is also to, when 
it is released, to be able to tell us how this plan will be 
integrated into the multi-sector National Transportation 
Security Plan?
    Admiral Bone. Yes, sir, in fact, it actually represents 
that sub-sector plan under the transportation security plan, 
maritime sector.
    Mr. LoBiondo. Have you already begun to implement any of 
the measures that will be part of the plan once it is 
finalized?
    Admiral Bone. Yes, sir, and that is why when we look at the 
area maritime security plans, although this is a national 
capstone document, like a national response plan, that does not 
keep us from working, again, at the areas and at the local 
level in order to address security now. We knew we couldn't 
wait for a national plan to begin that.
    So all of your area maritime security plans have been 
completed, as well as all the vessel and security plans, which 
again, support that area maritime security plan.
    Mr. LoBiondo. Will the implementation of the plan lead to 
changes in existing vessel and facility plans or other already 
established MTSA programs?
    Admiral Bone. I am not aware of any at this time, sir, but 
I will get back for the record if there are.
    [The information received follows:]

        There are no immediate changes in store for MTSA vessel and 
        facility plans. However, those plans are subject to a 
        regulatory requirement for ongoing review and revision. The 
        National Maritime Security Plan may suggest mitigation 
        strategies that could have an impact on maritime security 
        practices and protocols. These strategies may affect vessels 
        and facility owners' plans, such as passenger security measures 
        for ferries and the sharing of up-to-date reserve cargo 
        handling capability information and data with the Government to 
        support the restoration of cargo flow in the aftermath of a 
        Transportation Security Incident (TSI). Although MTSA-regulated 
        facility and vesel plans may not be immediately affected, the 
        NMSP exercise program could address issues associated with the 
        restoration of cargo flow and communications at the national 
        level. Lessons learned from these and other national level 
        exercises may generate recommendations for improvements and 
        corrective actions that could affect the content or construct 
        of the MTSA system of maritime security plans and programs.

    Mr. LoBiondo. Okay. We look forward to receiving this and 
we will already be talking about, after today, about setting up 
a schedule so that we can have an opportunity to deal with 
that.
    I just have a minute or so left, but I am going to defer to 
Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman.
    Thank you gentlemen for being here with us. I wonder if, 
Admiral, you might comment on one of the points I raised about 
what we will call community policing, that is access of course 
restricted as if it were a military installation, isolation 
from the public, location policy which takes people away from 
being in one community, boarding recreational vehicles with 
weapons. In the post-9/11 world, we have to move in that 
direction.
    But are you concerned about moving too far? Because we need 
the community. We need those on the waters as our eyes and 
ears. We want them to be part of us and not in isolation. So I 
wonder, where do we find that balance?
    Admiral Bone. Representative Filner, I can't agree with you 
more that we need those people. In fact, we seek them out 
through America's Waterways Watch Program and our Coast Guard 
Auxiliary has engaged them. We do have military facilities, we 
are a military organization and we do have force protection 
issues and we do provide security at our facilities, the same 
as other DOD military facilities. But that in no way should 
restrict our access, as you indicated, to the public in 
carrying out our duties.
    Our people have been armed prior to 9/11, conducting 
boardings, law enforcement boardings that you are talking 
about. But in addition, our auxiliary are not armed. Quite 
often, they are the people that most often do our boating 
safety exams that you see on recreational vessels.
    But I can tell you that through the Area Maritime Security 
Committee, there is probably more engagement than ever before, 
with the community as a whole, including marinas, than we ever 
had before. I don't know where the perception is, but if it is 
in a particular area, I would be of interest to know it, so 
that we can see if we can address it, sir.
    Mr. Filner. How about the rotation policy?
    Admiral Bone. The rotation policy is, when you look at it, 
it is kind of a double-edged sword. You want the people to 
bring the new approaches and ideas in and you want the 
experience, the breadth of experience and in not every port can 
you receive that experience to move in the organization. You 
want people that, for example, not all vessels operate, all 
types of vessels or all types of facilities are in one 
location. So you don't want to minimize a person's ability to 
develop your skills and their competencies and capabilities, 
and at the same time, I agree, you want some continuity.
    So what we look at is a rotation, and not everyone rotates 
at once, obviously. So there is continuity. We also have 
increased our civilian billets at many of those units and 
civilianized those billets so there will be long term 
continuity.
    Mr. Filner. Do any of your Coast Guard have a say in if 
they want to stay at a location longer? Are they required to 
rotate?
    Admiral Bone. When you indicated there are three years, 
there are people that have been in geographic areas for fifteen 
to twenty years. Not everyone rotates. But I would say that 
opportunity or that look to rotate or have another assignment, 
and it could be an assignment within the same geographic area, 
someone could move from one position to another and still have 
a job rotation. You can do that internally within a command, 
but you can also do it within command within a geographic area 
and garner that same interest of continuity that you are 
looking for.
    Mr. Filner. In the post-9/11 world, we moved to the so-
called Patriot Act, which strongly limits a lot of the 
privacies and freedoms we had taken for granted. The Coast 
Guard becomes something else. We have to move, obviously, in a 
direction. But let us not go overboard, if I may use that 
expression, in reaction to 9/11, because we become something 
that we don't want to be as a nation, whether it is losing our 
freedom or losing our close relationship with the Coast Guard.
    Admiral Bone. I agree with you.
    Mr. Filner. My other point I made was effective measurement 
of how effective we are. That is, we have implementation of 
security plans, for example. But can we measure what effect 
this has had? Have we identified weaknesses? Are we trying to 
measure whether thefts have been prevented? How do we do that?
    Admiral Bone. That is a good point. I think there are 
multiple ways you can measure. One way is looking at changes. 
When longshoremen are basically trained and looking, trained to 
look for those anomalies and are actually providing that 
information to you at different points, that is a change that 
is significant. There is a measure with our field intelligence 
support teams where they are receiving information just as you 
said, from the public, but also from the mariners themselves 
and the facility workers of unusual activity or vessels 
loitering in and around the facility.
    I can tell you that our largest problem with facilities has 
in fact been access control. We believe that improved 
credentialing will assist in that.
    I have talked to the insurance companies to identify to 
what degree is the pilfering or theft taking place in the port 
versus out of port. It is clear in the view of the insurance 
companies that the problem lies outside the port area, and in a 
sense that it has improved since 9/11. I asked them for 
statistics, they said they haven't done the analysis, but they 
in fact have a confidence that since MTSA has been put in place 
and the increased security following 9/11 that that has 
improved significantly. They just have not done the total 
analysis yet.
    Mr. Filner. Just one more point if I may, Mr. Chairman. The 
first item you mentioned is longshoremen, that they know what 
is going on. We had a discussion, or several discussions when 
the security committees were set up, there was no guaranteed 
representation for the longshoremen. I was just wondering, has 
that changed? Are you bringing in these people who know the 
ports the best?
    Admiral Bone. I can speak from experience from New York, 
myself. The longshoremen in fact were trained, I think, you had 
the national, you had the New York Maritime Association 
actually training longshoremen and people at the facility 
themselves. And the labor leaders were in fact very positive 
that they wanted to be a force in place to prevent any actions 
of terrorism.
    Mr. Filner. But we did not add them as required members of 
the security committees, did we?
    Admiral Bone. I would have to look, myself.
    Mr. Filner. Would you look into that, please. Thank you, 
Mr. Chairman.
    Admiral Bone. We could.
    [The information received follows:]

        Longshoremen are not required members of the security 
        committees. The regulations for Area Maritime Security 
        Committees, however, state that the committee will be composed 
        of members having an interest in the security of the area and 
        who may be selected from various groups, one of which is 
        maritime industry, including labor.

    Mr. LoBiondo. Okay, thank you, Mr. Filner.
    Mr. Reichert.
    Mr. Reichert. Thank you, Mr. Chairman.
    Welcome. The Maritime Transportation Security Act created a 
requirement that workers entering a secure area in our ports 
had a Transportation Worker Identification Card. The port of 
Seattle, which has jurisdiction over SeaTac International 
Airport and the seaport near downtown Seattle has created a 
viable biometrics based access system for the 20,000 plus 
employees who work in the airport. Because this port operates 
both the airport and the seaport, they are extending many 
features of the airport access system to the seaport. To date, 
the seaport of Seattle has invested over $5 million for this 
biometrics system.
    Currently there is a lack of Federal guidance in 
establishing these cards. I am sure other ports are also in the 
process of developing these cards. Do you know if there is an 
effort by the Department of Homeland Security and the Coast 
Guard and others to implement management standards?
    Admiral Bone. Yes. The Transportation Security 
Administration has the lead for the Transportation Worker 
Identification Card, which would in fact incorporate air, 
surface and maritime requirements for the credential itself, in 
other words, what needs to be on the identification credential 
and also for the requirements for issuance.
    The Coast Guard is actually working, since November 2004, 
with TSA in order to do this. Again, the Department of Homeland 
Security has determined TSA to be the lead agency for this in 
that there are 12 million people impacted by the TWIC card. The 
maritime group represents about 300,000 when you look at ships 
and facilities. But we are basically poised to move forward 
when that standard is set, and in fact the TSA has indicated 
that they expect the proposed rulemaking in 2006. That is their 
timetable for that.
    We share concerns that have been raised with regard to the 
timeliness of this effort, and we are working with them as 
closely as we can to assist them in any way we can to get this 
moved forward for the maritime environment. Again, we don't own 
all the different modes in this regard.
    Mr. Reichert. Right. Some time in 2006, though is the 
target date.
    Admiral Bone. Say again?
    Mr. Reichert. Is there a target date, you said, sometime in 
2006?
    Admiral Bone. Yes, end of fiscal year 2006, which would be 
September 2006.
    Mr. Reichert. Another question. The Maritime Transportation 
Security Act created a grant program to help our ports perform 
security enhancements. These grants have proven very effective 
in my home ports of Seattle and Tacoma. My question involves 
how these funds are allocated to each port. How does the 
Department of Homeland Security determine how to allocate port 
security grants to each port? Do you know?
    Admiral Bone. Yes. Actually it is first done at the Captain 
of the Ports of the Federal Maritime Security Coordinator's 
level. The identification, working with the area maritime 
security committees, when you identify your vulnerabilities and 
your gaps, you look at what do you need in your system. What 
happens is industry puts their proposals forward, they are 
initially vetted at that level so that you want to make sure 
they are going to be effective.
    It is then put forward to a national level. And the 
national level looks at not just the local but the regional and 
national impacts. It is a risk-based formula that is used 
across ODP, IAIP, CBP, all agencies, TSA, working together to 
look at this risk-based approach, looking at vulnerability, 
threat, and consequence. That is what you determine, of the 
critical ports in this case, that have been identified this 
year, the 66 critical ports that have economic and military 
significance. Those ports then are determined, those ports are 
able to put the grants in and those are then evaluated on a 
national level and a determination is made based on, again, 
value, impact of this proposal against the risk that is being 
proposed.
    Mr. Reichert. The House of Representatives recently passed 
a first responder's bill that focuses those monies toward first 
responders on a threat basis and a risk basis. You are involved 
in the intelligence gathering process also, across the Nation, 
involved with some of the joint analytical centers and 
terrorism task force centers around the world. We have those in 
Seattle. You are involved in that process?
    Admiral Bone. Yes. We are actually a full member of the 
intelligence community. As such, we have access to all the 
intelligence, available intelligence, whether it is national or 
international, working with CIA, FBI, NSA, all the major FBI. 
We have people in the JTTFs, personnel that are assigned 
liaison with the JTTFs. We have established 30 field 
intelligence support teams that basically support the area 
maritime security committees and the Federal maritime security 
coordinators. If you know where your threat is, then you move 
your assets based upon the threat.
    They also work directly with the JTTFs and the local law 
enforcement to make sure that we are working collectively and 
not duplicating efforts. In other words, by example, in New 
York, we might have State assets in one location and Federal 
assets in another, city assets in another location, to maximize 
the effectiveness, based upon the threat.
    Mr. Reichert. Thank you, Mr. Chairman. I see my time has 
expired.
    Mr. LoBiondo. I thank you, Mr. Reichert.
    Mr. Higgins?
    Mr. Higgins. No questions, thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Coble, Master Chief?
    Mr. Coble. Thank you, Mr. Chairman.
    Gentlemen, it is good to have you all with us. He calls me 
affectionately Master Chief. I was never a master chief, 
unfortunately. But I like the title.
    It is good to have both of you with us. Mr. Jacksta, let me 
put a question to you, a multi-faceted question, if I may. The 
Maritime Transportation Security Act, as you all know, requires 
the Secretary to establish a secure system of transportation 
program, but no such program has yet been established. Admiral, 
either you or Mr. Jacksta, when will this program be 
established?
    Mr. Jacksta. Well, sir, basically we are working on it 
right now, with the World Customs Organization just 
establishing and agreeing on standards for supply chain. We are 
working to first of all begin looking at the supply chain from 
when the container is actually stuffed, with who is putting the 
goods into the container, making sure that we measure that 
responsibility. We seal the container with a seal where we can 
verify that the goods have been put in and that no one else has 
had access to the container.
    Then we have a system of information where we gain the 
information, we run it against our automated targeting systems 
to make a decision whether there is a concern or a threat. At 
37 locations today, the container is moving through a CSI port, 
which allows us to once again, our officers overseas to 
evaluate the container if there is a concern, we can request 
the examination of that container.
    We are also working with the importers, the shipping 
industry, through the CT-PAT program to make sure that there is 
a consistent and uniform way of securing the goods, to make 
sure that no one can compromise
    Mr. Coble. You are sort of getting into my second question, 
Mr. Jacksta. When do you think the program will be online?
    Mr. Jacksta. Sir, I would like to say, I think we are 
online with a number of our changes today, through the CT-PAT 
program, through the CSI program, working to develop a seal 
that is a secure seal. So I think there are a number of 
initiatives that are already started and are actually moving 
forward.
    Mr. Coble. Like I say, you accelerated ahead of me, you 
were sort of reading my mind and my next question. Let me jump 
into that now.
    Cargo security is largely overseen by U.S. Customs and 
Border Protection. However, numerous Federal agencies have some 
responsibility over securing the transport of cargo through the 
maritime domain, as you have just pointed out. Let me walk you 
through, here is my multi-faceted question, Mr. Jacksta. From 
the moment that a cargo container is brought into a foreign 
port until that container is offloaded at a U.S. port, what 
responsibilities does Customs and Border carry out to secure 
the maritime cargo supply, A, and B, what are the Coast Guard's 
responsibilities with regard to container security? And 
Admiral, you can weigh in on that.
    What efforts are taken by other DHS agencies and other 
Federal agencies? Are these responsibilities well defined, or 
do they overlap? That is to say, is there duplication, as is 
oftentimes the case with the Federal Government? And how are 
these efforts and requirements integrated for a vessel operator 
who is pulling into a U.S. port?
    Mr. Jacksta. What I can do is, I will start it off, sir, 
with the responsibility that first of all, we have a number of 
voluntary programs out there that we work with the industry, 
the importers, the exporters and the shipping industry. With 
that, when a container arrives at a port overseas, one of the 
first things that is required is that before that container can 
be put on that vessel, we have to receive information regarding 
what is in that container. That information allows us to run 
our automated targeting system and our rules to identify if 
there is anything that is a concern or if any recent 
intelligence has come out that would help us make a decision on 
whether an examination needs to take place.
    So we review the manifest information before that container 
gets on that vessel. If there is a concern, we look at it, we 
work with the host governments. This is a cooperative effort 
where we need to work on the international side of the house to 
make sure that when there is a concern, that it actually gets 
addressed overseas.
    We also are working with our CT-PAT program, and anybody 
who is involved with this program is required to put a seal on 
the container at the time of stuffing, which is extremely 
important, because it makes sure that the container is not 
being compromised. When the vessel, we work very closely with 
the Coast Guard, and the vessel, when it is arriving at our 
ports of entry, we have some concerns or new intelligence, we 
work to develop a plan to make sure that that container is 
identified, that when it comes off the vessel we do the 
appropriate examinations. And if necessary, working with the 
Coast Guard, a decision can be made, not actually to allow that 
vessel in until we know more about the container itself.
    So before the container is actually put on the vessel, 
while it is enroute and before it is released by Customs-Border 
Protection, we are reviewing the information. We have 
technology at the ports of entry through our radiation portal 
monitors that allow us to determine whether there is any type 
of threat in the radiological area. And there is also the 
systems, what we call our x-ray systems, our VACUS systems, 
that allow us to basically take pictures and view the images of 
containers and the goods in the containers before they are 
released.
    So it is a comprehensive, layered approach that we try to 
work very closely with TSA in the seaport environment.
    Mr. Coble. Admiral, do you want to weigh in on this?
    Admiral Bone. I just offer that HSPD-13 in fact is being 
developed that identifies very explicitly the responsibility of 
different agencies, as Mr. Jacksta mentioned, and kind of 
describes how that process works so there isn't overlap, so 
there is clarity of responsibility. And again, that is one of 
the plans that is going to be completed.
    I just offer that we do have responsibility with regard to 
the vessels as well as from the time through its transit and 
when it is on that facility, a MTSA facility. We do have 
responsibility for securing and safety of that cargo, not just 
the security but also the safety of that cargo.
    And I think that is where our international code and our 
standards and our verification, both with our foreign port and 
our examinations which we do jointly when there is a CSI, so 
that we look at the full measure of security, as well as the 
examinations and boardings that are conducted offshore, by our 
offshore, our legacy assets, and then again at the facility 
examinations inshore to look for any anomalies.
    Mr. Coble. I thank the gentleman. Mr. Chairman, I guess my 
point is, I would like to avoid duplication, but I would rather 
have duplication to preclude an omission if it comes to that. I 
thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Coble. Mr. Diaz-Balart?
    Mr. Diaz-Balart. No questions at this time, Mr. Chairman.
    Mr. LoBiondo. Mr. Mack?
    Mr. Mack. Thank you, Mr. Chairman.
    Maybe I will try to make this a little more simple for me. 
In the State of Florida, we have a number of ports. Just to 
give you an example, when I travel, let's say, with my 
children, I have a five-year old little girl and a two-year old 
little boy. When we go to the airport, a lot of times my two-
year old little boy is wanded down at the airport.
    So my question is, do you feel like we have the same 
strength of security in our ports that we do at our airports? 
And then, which I don't think we do, but I want to hear from 
your perspective. And I believe that earlier you said there 
were 9.6 million containers, roughly, that come in. What 
percentage of those are being checked?
    And specifically, how do you think the security of our 
ports should be funded? I think we have in some cases a funding 
discrepancy on who is responsible for that funding.
    Mr. Jacksta. I think I will start off with first of all, 
the question that is always asked is exactly how many 
containers are examined that arrive at our ports of entry. I 
would like to begin that, first of all, sir, all freight 
containers that are arriving at our ports of entry are screened 
by an electronic fashion, where we get the information, we 
review the manifest, and based on intelligence, based on 
previous history, based on information provided by other 
agencies, a decision is made whether an examination should take 
place or not.
    Mr. Mack. But most of those, the manifests are filled out 
by the people who are loading or responsible for loading the 
containers, correct?
    Mr. Jacksta. Yes, sir. The information that is provided is 
provided by the members that are responsible for creating the 
manifests and responsible for shipping the goods. So the 
information is not perfect, but it is fairly accurate in most 
cases.
    With that, when we do the screening, if there is a decision 
that is made that there is something unusual or we need to take 
a look at it, we do screening through our VACUS system, our 
imaging systems that we have out there. We have about 167 of 
them at various ports of entry throughout the country.
    Basically, the current rate of examination is approximately 
5.4 percent of the containers that are arriving at our ports of 
entry go through either a VACUS imaging system or are actually 
de-vanned, in other words, we take the goods entirely off the 
container to take a look at the container. Those are containers 
that are either identified through our automatic targeted 
system as a risk or containers that we randomly select for 
examination.
    Admiral Bone. With regard to security in the ports versus 
the airports, I agree with you. I think the vulnerability of 
airports is much different than the vulnerability of a port, 
accessibility and controls, moving in and out of an airport, 
whereas on the waterway, the accessibility and mobility of 
entities, both from an external but also from an internal 
threat, like a Kohl type incident, a small boat that is 
engaged, or an individual who comes aboard a high-speed ferry.
    So yes, our challenges are greater. But I think also our 
resources collectively are also greater. The key to this is 
pooling those resources collectively together at the Federal, 
State, local and industry level.
    I think the difficult thing to decide is to what degree, 
whose responsibility is it? Is it a Federal, State, or local 
responsibility for protection and response and recovery, and to 
what degree is that at those layers, as well as industry's 
responsibilities? That is what Congress, I think, has spent a 
lot of time doing.
    I wouldn't touch the funding issue, because that is not my 
business to decide how to pay for it, I don't think. I do know 
it is a challenge. I appreciate the challenge associated with 
it, and I also appreciate the challenges industry has with 
being, staying afloat at the same time they in fact have to 
carry out these security changes.
    As I said, our challenges are many. We want to address the 
most critical, the highest risk, the highest consequence ones 
first, and then it is Congress' and others, the public's 
determination, if it is worth pursuing the others.
    Mr. Mack. Mr. Chairman, for us in Florida, in particular 
the port of Everglades, you have the seaport, the airport, a 
lot of petroleum reserves, and downtown all in one very small 
location. I just think that this topic of port security is one 
that I know the Chairman and I know this Committee has been 
working on.
    But we really have to do more. Because the people who want 
to cause harm to this Country are going to look for our 
vulnerabilities. They have proven to be sneaky. So they are 
going to try to find ways around systems. I just hope that we 
will continue to work towards a funding solution and also to 
make sure that our ports are safe.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Mack.
    I can understand, Admiral Bone, your reluctance on the 
funding issue. But Mr. Mack, I will tell you, I am not 
reluctant to say that I don't think we have received nearly 
enough funding for our port security issues or nearly enough 
attention. Heaven forbid we ever have an incident at one of our 
ports and will see the level of awareness rise significantly 
and probably the funding follow. Our hope through hearings like 
this is to make sure that we can keep an incident from 
happening by keeping the process moving along. But you are 
right on the mark with your questions about where we stand.
    Mr. Filner, round two.
    Mr. Filner. Also, Mr. Mack, I agree with everything you 
said. San Diego, where I represent, it is the exact same thing, 
we will throw in a few nuclear carriers and nuclear subs, and 
it is pretty bad as far as the percentage of stuff that is 
inspected. So thank you for your comments.
    If I may with that, Mr. Jacksta, when I listened to the 
President last night, you wouldn't know that there was anything 
wrong in Iraq, that we had not made any errors or that our 
troops were subject to such risks. Everything was fine. And you 
guys, I don't think you have to say everything is fine. Tell us 
what is the problem. Because you lose credibility when there is 
knowledge that is different than what you are saying.
    Let me just make two points, if I may on the CT-PAT system 
that you referred to. According to the GAO, the Department has 
not confirmed whether most of the importers have actually 
tightened their security, or whether thousands of high-risk 
containers were inspected overseas. They say that 9,000 
applications from importers have been submitted for CT-PAT, 
5,000 have been accepted. However, you have only verified that 
597 were implementing the required security measures.
    So when are we going to know that all of them who are 
participating in this system are actually complying with your 
directives?
    Mr. Jacksta. Sir, you asked a question of challenges that 
we face. This is clearly one of the challenges that we faced 
when we established the CT-PAT program. It grew fairly quickly, 
which was good, because it is a voluntarily program and 
companies wanted to participate and work with the Government to 
establish security protocols.
    And based on that, we made a commitment that we would go 
out there and verify that what they were telling us through 
their security profiles was accurate and that they were 
complying with what they said. To get started, we needed to 
bring personnel on board. And initially when the GAO report 
that you are referring to was done, we only had somewhere in 
the area of about 35 people on board working on this 
initiative.
    As a result of this, we have taken an initiative, and today 
we have over 70 employees that are currently going out there, 
traveling around the world to verify what these companies are 
saying is true. Our goal is that by the end of this calendar 
year that we have 157 employees working on the CT-PAT program 
to ensure that we are visiting the locations and verifying what 
they say in their security profiles.
    What I think is important to note, sir, is that we 
currently have about 600 verifications done. We hope to have 
1,500 by the end of this calendar year, and then hopefully by 
the end of next fiscal year, we will have close to 3,000 
companies that will have had one of our supply chain 
specialists visit and actually verify that the information that 
the company provided us is accurate.
    So it is one of our challenges. We are making every effort 
to get the people on board so that we can go out there and 
verify that the companies that are participating in this 
program are truly in compliance.
    Mr. Filner. Again, I wish you guys would be more clear. If 
you add up the number of years it is going to take before you 
investigate all, the 5,000 that have been accepted, 9,000 want 
to be, and you are only up in three years to what did you say, 
3,000? Hello? I don't have a lot of confidence. You have 70 
people out in the whole world looking at these 5,000?
    I don't have the confidence that you are trying to, I guess 
in your tone, provide. But I think you should be saying, look, 
these are the challenges, help us meet those challenges, not 
tell us how everything is fine. Because everything is not so 
fine. People have said over and over again, we have to be 100 
percent correct, and the terrorist only has to be right once.
    But when you leave half or two-thirds of our potential of 
the CT-PTA people that haven't even been verified, I don't have 
a lot of confidence that you have enough resources to do this 
job. I am not questioning your commitment or your attempt. I am 
saying, be honest with us so we can get you the resources that 
you need to do the job. Just like I wish the President would--
you know, what resources you need to do the mission successful 
and he says everything was fine.
    So let me just make the same point on another issue, and 
that is, that you mentioned also the high risk containers and 
the program to inspect them you outlined earlier in answer to 
another question. But apparently, again according to a GAO 
report, containers have already been loaded and shipped in many 
cases before you have scanned them in the way you have told us 
about in the foreign port. In fact, some of the host countries 
have declined to conduct the inspections.
    So we have a certain percentage leaving the port before 
they are even going through this thing that you have such high 
confidence in. I am not sure that I like the fact that a 
container that has not been inspected may have a WMD in it and 
can go off as it gets to our port.
    So again, what are the exact problems and what do you need 
to deal with it?
    Mr. Jacksta. One of the issues, again, a challenge that we 
have to face is that we have to work very closely with the 
foreign government, because our officers are in a foreign port, 
we have to make sure that when a shipment is targeted for 
examination that we can ensure that that shipment goes through 
a VACUS image or actually has the goods taken off. I think what 
we have done, once again, a new program that was developed and 
is continuing to evolve is we continue to work with the various 
governments to ensure that when we target a container for 
examination that it is examined. That at times can be a 
challenge.
    What I will tell you and commit to you is that based on the 
information that we have regarding the container, if it is a 
threat or a real concern to us, we have the authority to just 
not load that container and give a no-load message that tells 
the carrier that he is not allowed to ship that container until 
examination takes place. So once again, this is a challenge 
that we do have, that we are continuing to try to address with 
the foreign governments.
    I think at the World Customs Organization, the recent 
adoption of the standards that have been achieved, that we work 
together in partnership, both through customs and the industry, 
to make sure that when a container is identified by a 
government for examination that it takes place.
    So I think the recent agreement will help us get to that 
point.
    Mr. Filner. Well, again, I am not getting a lot of 
confidence here. I think there are governments that have not 
put those scanners in or refused to put them in. There are 
again containers leaving the port before you even get there. So 
again, I just wish you had more quantitatively let us know 
about that so we can, as we want to do, provide the resources 
to make us safe. That is all, and I just don't think you all in 
the Administration have got to say everything is going right.
    We don't expect everything to happen overnight, but we do 
expect to know the real problems so we can help correct them. 
We see this as a partnership. If you are not giving us all the 
information, then we can't help as much as we would like.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Filner.
    For Admiral Bone or Mr. Jacksta, just a follow-up. The MTSA 
implementation with the final regulations to implement the 
requirements of MTSA went into effect one year ago. Has the 
Coast Guard and the Department identified additional port 
security measures not specifically authorized by MTSA that 
remain to be implemented?
    Admiral Bone. I can identify one of the areas that we know. 
When you talk about the merchant mariners credentialing and the 
TWIC card, again, as we discussed earlier, that still remains 
and we actually need a legislative change proposal in order to 
effectively execute that merchant mariner credentialing 
process, that would allow the biometrics to be used and allow 
us to basically keep someone from receiving a merchant 
mariner's document that is in fact a security risk.
    We still have some work to do in that area specifically.
    Mr. LoBiondo. Admiral Bone, for you, I am sure you know and 
we are all painfully aware that the design and funding of the 
Deepwater program has received considerable attention recently, 
and we have some serious questions and I think problems. I 
would like you to comment on what is your take, will the effect 
of the delay in the implementation of the first response cutter 
program be on the Coast Guard's readiness to carry out vessel 
inspections, interceptions and other port and coastal waterway 
security missions?
    Admiral Bone. I can only tell you that my experience has 
been that you don't want to board these ships in the port. You 
don't want to have it in your own back yard. We need to have 
cutters, aircraft and communications systems that will allow us 
to intercept these vessels offshore, or any threat that 
presents itself in an offshore environment, and not in a near 
shore environment, if at all possible.
    Those legacy assets in fact do need replacement. And if we 
don't have replacement, then their availability will be limited 
and therefore, something that may have been needed to be out on 
scene may in fact be in repair. So if your readiness is at 
risk, then your shield basically of security is also at risk. 
It is a serious issue and something that why, in fact, we are 
requesting the full $966 million that the President's budget 
identifies.
    Mr. LoBiondo. I wish we collectively could do a better job 
of having everyone understand what the implications are if we 
are not able to keep on track with this critical program. It is 
discussed in sort of abstract terms sometimes, and it has some 
very real world applications which could give us huge problems 
if we are not able to bring this together. So thank you.
    Mr. Reichert, second round?
    Mr. Reichert. Thank you, Mr. Chairman.
    Have you participated in the Top Off exercises?
    Admiral Bone. I did not participate in the Top Off exercise 
that was recently held, but I have had close to that experience 
in the past.
    [Laughter.]
    Mr. Reichert. I had experience as the sheriff in Seattle to 
participate in Top Off II. I just wondered if the Coast Guard--
I know in that exercise the Coast Guard was not a part of that 
exercise.
    Admiral Bone. There was a Top Off exercise recently in 
Connecticut, Mr. Simmons can probably speak to it. But where 
the Coast Guard in fact did have a lead responsibility is--I am 
trying to remember the term now, basically served as the 
Department of Homeland Security coordinator and lead 
representative for the Department. And yes, there have been 
exercises. There is a regularly scheduled exercise program, 
including facility level programs as well as national level 
programs that the Coast Guard, Customs and Border Protection, 
TSA and the other agencies collectively are involved in. I 
would say that that is a program which is included in the MTSA 
that we are carrying out.
    Mr. Reichert. Do you think that those programs are 
beneficial for you in helping you identify the weaknesses that 
we might have in your response?
    Admiral Bone. I think definitely a perfect example is 
lessons learned, such as, it may be much simpler to close a 
port than it is to decide how to re-open and what would be true 
impacts and regional and national impacts associated with that, 
and who is involved in that decision making and the complexity 
that that brings.
    Mr. Reichert. So as you have analyzed it, Top Off exercises 
or some of the other training exercises, is there any 
legislation that you can think of, any way that we can help you 
to address some of the weaknesses that you might have 
identified in some of those exercises? If you don't have an 
answer now to that question, you can answer for the record.
    Admiral Bone. I think what the exercises help you do is 
give focus to say, okay, are your screening methods proper, are 
your communications effective. If they weren't, you reexamine 
what it is you have. I would not come to you and say, I have a 
problem, I would rather come to you with, here is the solution, 
here is what we need. And I think that as you say, we are in 
the early stages of this. But some of those areas that I 
identified in America's maritime shield, the efforts that we 
have ongoing, are directly reflective of what we have learned 
in some of those events and exercises.
    Mr. Reichert. Do you think that in some of the smaller 
fishing boats, especially from my area I'm familiar with in the 
Puget Sound, being subject to some of the same requirements as 
the larger vessels, is that an issue that you see as a 
challenge for the Coast Guard to address?
    Admiral Bone. Yes. In fact, we look at legislation, at the 
potential for legislation to move the Automatic Identification 
System or the identification of vessels and their movement to a 
lower threshold to include vessels 65 feet, all vessels that 
are down to 65 feet. We are looking at that. We have not put 
that forward at this time.
    But we do understand that a Kohl type incident which could 
be even a smaller vessel than that, has the potential, of 
course, as the vessels get larger, they could carry more 
explosives and therefore do more damage. But I think anything 
that could move or be a transport mechanism, not just the big 
ships and containers, but anything internally that moves within 
the system, a lot of times we focus out instead of looking 
within. We need to address those threats.
    Someone may want to move somebody to a location, say you 
have great security around your tunnels and your bridges. Well, 
then, you get in a boat, you take the boat across, the truck 
went across, they drop them off in a location, they get in the 
vehicle from the small boat and off they go. We don't want to 
have anything large come in or any vessel be used as a transit 
method for bringing weapons of mass destruction, conventional 
weapons or terrorists in any direction.
    Mr. Reichert. So you mentioned you are considering 
proposing some legislation, maybe in some areas that we might 
be to help you in.
    Admiral Bone. Yes.
    Mr. Reichert. One last question. I am always curious as to 
what agencies looked like pre-September 11th. I know what our 
sheriff's office looked like and what our mission focus was. 
But after September 11th, it changed. Maybe just give an 
example of, and maybe if there is an increase in personnel 
training, mission focus, your resources, those sorts of things, 
I imagine you have changed a lot in the years since September 
11th.
    Admiral Bone. MTSA actually provided funding of the $101 
million we have. We moved 800 more people into position, 
basically, to work both as boarding and examination, but also 
in the liaison position. Again, a lot of this activity involves 
coordination, besides examinations. I think that what you found 
is an organization that used to organize themselves and work in 
partnerships with others on safety and environmental issues now 
leveraging some of those same relationships and adding many 
more additional in order to address the security portion of 
this.
    Our intelligence community alone has grown greatly as well. 
In other words, if you don't know the threat then you can't 
accurately place your assets. No different than a police chief 
has to know where his high crime areas and where the crooks are 
moving in order to move his assets into the proper location to 
address it.
    Mr. Reichert. I appreciate the work you are doing. I know 
that you have made lots of progress, but there are lots of 
things yet to come. We look forward to helping you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Reichert. Mr. Diaz-Balart?
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    The MTSA and SOLAS both require that certain vessels 
operating in U.S. waters be equipped with an operating 
Automatic Identification System, AIS. AIS includes a position-
indicating transponder and an electronic charting or situation 
display for accessing information made available by that 
transponder system. The system allows the operator of a vessel 
to identify the position and heading of their vessels but also 
other vessels in the area. Also, it will allow shore-based 
Coast Guard facilities to more easily monitor the location and 
heading of those vessels in their area.
    Two questions, if I may, Mr. Chairman. The AIS has been 
traditionally seen as a safety system. However, since 9/11, is 
that system now being viewed as an anti-terrorism tool, number 
one. And number two is, is it unusual for technology that is 
developed for commercial and safety missions of the Coast Guard 
to also serve now as multi-mission purposes that include port 
and waterway security? Those would be the two questions.
    Admiral Bone. First, AIS, yes, early on was identified as a 
safety system. But I can tell you, as early as 1998 even it was 
being viewed as a potential security tool at the same time. It 
just became of more import after 9/11.
    I think that the issue of safety and security go hand in 
hand. In fact, environmental protection goes hand in hand. We 
look at our requirements both in the impacts of something as 
having improved training, improved awareness. It cuts across 
all of what the Commandant likes to talk about as the three-
legged stool of safety, security and environmental protection.
    So our multi-mission, our examinations we look at together, 
when we go aboard to look at a security boarding, we look at 
the safety issues and the environmental issues at the same 
time. I think that even whole construction vessels could be 
identified as making them stronger and less likely susceptible 
to a security incident.
    So we look at the communications again, the capabilities 
and the awareness. Having security officers onboard will also 
improve the safety onboard.
    Mr. Diaz-Balart. Mr. Chairman, if I may, just a couple more 
questions.
    Mr. LoBiondo. Go ahead.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    You mentioned in your testimony, sir, that the Coast Guard 
will be increasing its presence in ports and coastal zones with 
more people, boats, ships, your force structure. My question 
is, where are those assets and personnel going to come from, 
number one, and number two is, do you have enough personnel and 
vessels and ships to really make an impact, significantly 
increase your presence for port security and your myriad of 
other, multiple missions?
    Admiral Bone. Again, we have received $101 million and 
again, included in that, we also have 80 small boats that have 
been procured since 9/11. We have 14 coastal patrol boats and 
crews. We have 500 personnel added to our small boat stations 
and our command centers. That is an example of, in the budget 
that Congress has actually provided us to increase our 
capabilities.
    Additionally, in this next year's budget, there is an 
increase in funding for personnel associated that we are going 
to be placing again at L&G facilities and to address, again, 
additional crews to provide protection of the highest risk 
arenas.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Diaz-Balart.
    Mr. Filner, do you have anything else? Mr. Reichert?
    I would like to thank Admiral Bone and Mr. Jacksta for 
being here today and for the work that you do and continue to 
do in a very, very challenging but critically important area 
for homeland security for the United States of America. We on 
the Subcommittee will continue to try to be as vigorous as we 
can and we look forward to hearing from you again soon.
    We are adjourned. Thank you.
    [Whereupon, at 11:17 a.m., the subcommittee was adjourned.]


    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
                                    

</pre></body></html>
